M
S                                                 MINE SAFETY AND HEALTH
H
A                                                 ADMINISTRATION
M
I
N
E
R

A
    Office of Inspector General—Office of Audit
C
T
D
C
I
A
D
R
A
F
T




                                                  MSHA NEEDS TO IMPROVE ITS CIVIL PENALTY
                                                  COLLECTION PRACTICES




                                                                      Date Issued:   November 18, 2011
                                                                   Report Number:      05-12-001-06-001
U.S. Department of Labor                                        November 2011
Office of Inspector General
Office of Audit
                                                                MSHA NEEDS TO IMPROVE ITS CIVIL
                                                                PENALTY COLLECTION PRACTICES

BRIEFLY…                                                        WHAT OIG FOUND
Highlights of Report Number 05-12-001-06-001,
issued to the Assistant Secretary of Labor for Mine             The OIG found that MSHA did not have an accurate
Safety and Health.                                              view of the amount and age of its uncollected civil
                                                                penalties. As of October 2011, MSHA had collected and
WHY READ THE REPORT                                             deposited $124.8 million (85 percent) of $147.1 million
                                                                for civil penalties that became final orders in FYs 2009
The Federal Mine Safety and Health Act of 1977                  and 2010. However, MSHA did not always (a) timely
requires Mine Safety and Health Administration (MSHA)           apply payments against outstanding debt of violators,
personnel to inspect mines to determine compliance              and timely and consistently refer delinquent debt to
with prescribed health and safety standards. During             Treasury; (b) identify potential scofflaw violators; and (c)
calendar years 2009 and 2010, MSHA inspections                  ensure that penalties were uncollectable before writing
resulted in the issuance of 174,354 and 172,035                 off the debt.
violations, and it assessed monetary penalties of
$137.0 million and $146.4 million, respectively.                In January 2008, MSHA reported that it had erroneously
                                                                not assessed a civil penalty for more than 5,000
The Civil Penalty Compliance Office within MSHA’s               violations that it had issued between January 1995 and
Office of Assessments is responsible for collecting and         July 2006. MSHA primarily attributed the oversight to
accounting for delinquent penalties and referring               ineffective monitoring by management but also cited
delinquent penalties to the U.S. Department of                  other contributing factors. MSHA could not assess a
Treasury. As of October 2010, for fiscal years 2001             civil penalty for 97 percent of the violations because the
through 2010, it had reported collecting 86 percent of          5-year statute of limitations had run out. MSHA reported
the monetary penalties owed. In 2007, as part of its            it took corrective actions to ensure it timely assessed all
overall enforcement strategy, MSHA and the Solicitor of         penalties.
Labor began specific efforts to pursue violators that
owed large amounts of delinquent civil penalties or             WHAT OIG RECOMMENDED
ignored paying their civil penalties although they were
financially capable of meeting their legal liabilities (i.e.,   We recommended the Assistant Secretary for Mine
scofflaws).                                                     Safety and Health require MSHA management to:

WHY OIG CONDUCTED THE AUDIT                                         •	   Revise existing procedures to assure timely
                                                                         application of civil penalty payments,
We conducted this audit to determine whether MSHA                        particularly when applying payments to the
properly collected and accounted for final civil penalties               oldest debt if the violator does not identify how
from violators. In addition, we obtained current                         to apply the payment;
information concerning a problem identified in 2008                 •	   Revise procedures to assure consistent 

related to violations for which civil penalties had not                  referrals to Treasury; 

been assessed.
                                                                    •	   Finalize policies and procedures to identify all
Our audit work covered MSHA’s penalty collection                         potential scofflaw violators; and
activities and write-off of uncollectable debt during fiscal
years (FY) 2009 and 2010. Additionally, we reviewed                 •	   Implement controls to assure appropriate and
information provided by MSHA concerning its failure to                   consistent write-off of uncollectable civil
assess civil penalties for several thousand violations                   penalties.
issued between January 1995 and July 2006.
                                                                The Assistant Secretary agreed with our
                                                                recommendations and believed they would improve the
READ THE FULL REPORT                                            Agency’s civil penalty collection practices. However, he
                                                                emphasized that some MSHA policies and procedures
To view the report, including the scope, methodology,           already exceed statutory requirements. While we agree
and full agency response, go to:                                that some MSHA policies and practices exceed
                                                                statutory and government-wide requirements, to be
http://www.oig.dol.gov/public/reports/oa/2012/05-12-            effective, policies and procedures must be clearly
001-06-001.pdf                                                  defined and consistently implemented.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Collection of Final Civil Penalties
                                    Report No. 05-12-001-06-001
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


RESULTS IN BRIEF ....................................................................................................... 2


Objective — Did MSHA properly collect and account for final civil penalties from 

            violators?.................................................................................................. 5

    MSHA did not have an accurate view of the amount and age of its uncollected 

    civil penalties. ............................................................................................................ 5


         Finding 1 — MSHA Did Not Always Apply Penalty Payments Timely .................. 5

         Finding 2 — MSHA Did Not Identify All Potential Scofflaw Mine Violators ........... 6

         Finding 3 — MSHA Did Not Consistently Ensure Penalties Were 

                     Uncollectable Before Write Off ........................................................ 7


Other Matters................................................................................................................. 9

    MSHA reported it took corrective actions to ensure it assessed all penalties ............ 9


RECOMMENDATIONS................................................................................................. 10


Appendices ................................................................................................................. 13

         Appendix A Background ..................................................................................... 15

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 17

         Appendix C Acronyms and Abbreviations .......................................................... 21

         Appendix D MSHA's Response to Draft Report.................................................. 23

         Appendix E Acknowledgements ......................................................................... 27





                                                                                          Collection of Final Civil Penalties
                                                                                            Report No. 05-12-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Collection of Final Civil Penalties
                                    Report No. 05-12-001-06-001
                                                         U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                               Office of Inspector General
                                                       Washington, D.C. 20210




November 18, 2011

                                 Assistant Inspector General’s Report



Joseph A. Main
Assistant Secretary for
    Mine Safety and Health
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, Virginia 22209

The Federal Mine Safety and Health Act of 1977 (Mine Act) requires Mine Safety and
Health Administration (MSHA) personnel to inspect mines to determine compliance with
prescribed health and safety standards. Civil penalties are assessed for identified
violations. 1 During calendar years (CY) 2009 and 2010, MSHA inspections resulted in
the issuance of 174,354 and 172,035 violations, and assessed monetary penalties of
$137.0 million and $146.4 million, respectively. As of October 2010, for fiscal years (FY)
2001 through 2010, MSHA had collected 86 percent of the monetary penalties owed.

The Civil Penalty Compliance Office (CPCO) within MSHA’s Office of Assessments
(OA) is responsible for (a) tracking civil penalty cases; (b) preparing contested cases for
litigation; (c) processing and accounting for penalty payments; (d) collecting and
accounting for delinquent penalties; and (e) referring delinquent penalties to the U.S.
Department of Treasury (Treasury). In 2007, as part of its overall enforcement strategy,
MSHA and the Solicitor of Labor (SOL) began specific efforts to pursue violators that
owed large amounts of delinquent civil penalties or ignored paying their civil penalties
although they were financially capable of meeting their legal liabilities (i.e., scofflaws).
See Appendix A for more background information.

The Office of Inspector General (OIG) conducted a performance audit to determine
whether MSHA properly collected and accounted for civil penalties from violators. 2 In
addition, we obtained current information from MSHA concerning its January 2008
report that it had erroneously not assessed monetary penalties for several thousand
violations issued in prior years.

Our audit work covered the penalty collection activities and write-off of uncollectable
debt during FY 2009 and 2010. We reviewed and analyzed Standard Operating
Procedures (SOP) and MSHA Standardized Information System (MSIS) business rules;
interviewed key officials; reviewed case files; analyzed data; and reviewed and obtained
1
    Violation, as used in this report, refers to a citation or withdrawal order.
2
    Violator, as used in this report, refers to controllers, operators, or contractors.
                                                                                     Collection of Final Civil Penalties
                                                           1                           Report No. 05-12-001-06-001
                                                  U.S. Department of Labor – Office of Inspector General



an understanding of the Exclusion list (list of violators MSHA excluded from referral to
Treasury for collection) and various other reports. We also reviewed information
provided by MSHA officials concerning several thousand violations issued between
January 1995 and July 2006 for which MSHA had not timely proposed civil penalties.
Our objective, scope, methodology, and criteria are detailed in Appendix B.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

RESULTS IN BRIEF

As of October 2011, $124.8 million (85 percent) of the $147.1 million for civil penalties
that had become final orders 3 in FYs 2009 and 2010 had been collected and deposited
with the Treasury. However, MSHA did not always (a) timely apply payments against
the outstanding debt of violators and timely and consistently refer delinquent debt to
Treasury; (b) identify potential scofflaw violators; and (c) ensure that penalties were
uncollectable before writing off the debt. In addition, MSHA reported that it had taken
actions to correct problems that led to several thousand violations not being assessed a
civil penalty between January 1995 and July 2006.

MSHA did not always apply all penalty payments against violator debts timely. Some
payments went unapplied for several months or years. As of September 30, 2010,
MSHA had a total of $2.9 million in payments received from June 2003 through
September 2010 that were not applied against debts owed by violators. This occurred
because MSHA’s policy is to match payments against specific violations. If payments
did not include sufficient information to determine which penalty the payment was for,
MSHA delayed payment application until it gathered the needed information. As a
result, violator debt balances were not up-to-date and MSHA could not be certain of the
delinquency status of individual violator debts.

To avoid erroneously identifying violator debts as delinquent and sending them to the
Treasury for collection when payments had been received but not applied, MSHA
automatically excluded selected violators from being referred (i.e., Exclusion List). As of
September 30, 2010, MSHA had not referred more than $8 million in potentially
delinquent debt associated with 133 violators on the Exclusion List because of
uncertainty caused by unapplied payments.

While MSHA’s actions to pursue repeat, long term debtors as part of its overall
enforcement effort were above the requirements of the Debt Collection Improvement

3
 Civil penalties become final orders (a) 30 days after the violator receives the proposed penalty
assessment or (b) if contested by the violator, 30 days after a decision by the Federal Mine Safety and
Health Review Commission.
                                                                         Collection of Final Civil Penalties
                                                    2                      Report No. 05-12-001-06-001
                                                U.S. Department of Labor – Office of Inspector General



Act of 1996, its policies and procedures did not assure that all potential scofflaws were
identified. MSHA did not identify all potential scofflaw violators because it did not finalize
or follow its draft criteria. The audit sample contained three violators with poor payment
histories and delinquent balances ranging from $244,415 to $327,739 which MSHA had
not identified for legal action as potential scofflaw violators.

MSHA did not consistently ensure that civil penalties were uncollectable before writing
them off. Contrary to its standard operating procedures, MSHA did not (a) document the
reason why debt was written off (94 percent), (b) acquire proper supervisor (70 percent)
or Deputy Director (17 percent) approval, (c) notify Treasury to issue a Cancellation of
Debt, IRS form 1099-C (42 percent), (d) determine if violators were still in business
before writing off uncollected debt (6 percent), and (e) prepare supporting worksheets
(5 percent).

In January 2008, MSHA determined that it had erroneously not assessed a civil penalty
for several thousand violations that had been issued between January 1995 and
July 2006. MSHA primarily attributed the oversight to ineffective monitoring by
management. Based on criteria established by U.S. Department of Labor’s (DOL) SOL,
MSHA subsequently determined that it could no longer assess a civil penalty for
97 percent of these violations, primarily because a 5-year statute of limitations had run
out. For the remaining violations, MSHA reported proposed civil penalties totaling
$142,558. As of June 28, 2011, MSHA reported current assessments of $101,544 4 of
which it had collected $61,409. MSHA reported that it had taken corrective action by
programming MSIS to mark violations as “assessment ready” no later than 182 days
after issuance and regularly providing managers with a monitoring report that identifies
and ages all violations not yet assessed.

MSHA RESPONSE

In response to the draft report (Report No. 05-11-003-06-001 5 ), the Assistant Secretary
stated that the report contains sound recommendations for improving the agency’s civil
penalty collection practices. However, he believed that additional or updated information
was needed to understand some of the findings and recommendations in a proper
context. He pointed out that the report does not cite any instance in which penalty
payments received from mine operators were missing or not deposited with the
Treasury. He also emphasized that several MSHA policies or procedures that the OIG
cites for improvement already exceed what is required by federal law or debt collection
requirements (e.g., scofflaw efforts, debt write-off restrictions).

The Assistant Secretary disagrees that MSHA’s debt delinquency information is
“unreliable;” and states that the Exclusion List has resulted in a significant savings in
time and administrative costs for Treasury, MSHA and mine operators. MSHA also


4
  The difference between Proposed Assessments and Current Assessments result from the judicial 

appeal process. 

5
  OIG changed the report number because we issued the final report during FY 2012. 

                                                                      Collection of Final Civil Penalties
                                                  3                     Report No. 05-12-001-06-001
                                            U.S. Department of Labor – Office of Inspector General



disagrees that scofflaw mine operators have been able to ignore civil penalty obligations
without consequence.

Finally, he stated that the citations for which MSHA did not propose civil penalties
between 1995 and 2006 occurred outside of the period examined in this audit
(2009-2010) and that the OIG did not find any unassessed penalties during the period of
our review.

The Assistant Secretary’s entire response is contained in Appendix D.

OIG CONCLUSION

We agree that penalty payments submitted by mine operators are automatically and
timely deposited with the Treasury. However, accounting for payments involves more
than assuring that the money gets to the bank. It must include reducing the related
account receivable by applying the payment against the related debt. We also agree
that some MSHA policies and practices exceed statutory and government-wide
requirements for debt collection. However, to be effective, policies and procedures must
be clearly defined and consistently implemented.

We continue to view MSHA’s debt delinquency information as unreliable. MSHA
acknowledged that it implemented the Exclusion List to avoid erroneously referring debt
to Treasury that appeared delinquent, but was not. Thus, MSHA was not able to rely on
its own information to make accurate debt referral decisions. While the Exclusion List
may have saved time and effort by not incorrectly referring debt that was not delinquent,
it is also possible (and inappropriate) that the Exclusion List prevented the referral of
debt that was delinquent. We agree that a scofflaw mine operator’s failure to pay civil
penalties does result in specific actions (i.e., consequences) such as demand letters,
referral to credit bureaus and collections agencies, and possible litigation by the
Department of Justice. Therefore, we revised the report to clarify that some mine
operators were able to avoid the enhanced enforcement actions of MSHA’s scofflaw
initiative (p. 7).

Finally, the time period related to the previously reported problem regarding violations
without a proposed civil penalty is clearly stated in the report. Since this issue received
considerable attention when it was first reported by MSHA and the topic was closely
related to assessment collection, we thought it was appropriate to provide updated
information on the resolution of the problem. We have added a sentence to state that a
recent MSHA management report shows no violations older than 180 days without a
proposed assessment (p. 10).




                                                                 Collection of Final Civil Penalties
                                             4                     Report No. 05-12-001-06-001
                                            U.S. Department of Labor – Office of Inspector General



RESULTS AND FINDINGS

Objective — Did MSHA properly collect and account for final civil penalties from
            violators?

       MSHA did not have an accurate view of the amount and age of its uncollected
       civil penalties.

As of October 2010, $83.1 million (80 percent) of the $104.4 million for civil penalties
that had become final orders in FYs 2009 and 2010 had been collected and deposited
with the Treasury. However, MSHA did not always (a) timely apply payments against
the outstanding debt of violators and timely and consistently refer delinquent debt to
Treasury; (b) identify potential scofflaw violators; and (c) ensure that penalties were
uncollectable before writing off the debt.

Finding 1 — MSHA Did Not Always Apply Penalty Payments Timely

MSHA did not always timely apply penalty payments against violator debts. MSHA’s
SOPs stated that penalty payments should be applied within three business days of
receipt. However, MSHA’s policy of matching individual payments against specific
violations and/or penalty case(s) sometimes resulted in delays in applying a payment.
This caused MSHA’s uncollected civil penalty debt balances to be overstated by
$2.9 million of unapplied payments. As a result, MSHA was not certain of the
delinquency status when identifying individual violator debts for possible referral to the
Treasury for collection.

When submitting a penalty payment, if a violator provided instructions that it be applied
against a specific violation case(s), MSHA complied. However, if no instructions were
provided, MSHA personnel completed several steps to try to match the payment
amount against specific violation case(s). These steps sometimes included researching
all outstanding civil penalty cases for that violator and contacting the violator for
additional information. Ultimately, if these efforts were unsuccessful, MSHA’s policy was
to apply the payment to the oldest outstanding violation case(s).

Violators had submitted 259 payments, totaling $1,443,719, related to our audit sample
of 269 civil penalties. MSHA did not apply 56 of the 259 payments (21.6 percent),
totaling $348,976, within its stated 3 business day policy. The actual time to apply the
payments for these 56 cases ranged from 4 to 777 business days.

                    Actual time                                         Total
                                                 # of Cases
                to Apply Payment                                      $ Amount
          4 to 24 business days                      31                  $259,720
          25 to 99 business days                     12                   $75,744
          100 to 299 business days                    9                     $6,669
          More than 300 business days                4                      $6,843
            Total                                    56                  $348,976
                                                                 Collection of Final Civil Penalties
                                             5                     Report No. 05-12-001-06-001
                                                 U.S. Department of Labor – Office of Inspector General



From June 2003 through September 2010, MSHA received payments totaling
approximately $286 million. However, as of September 30, 2010, it had accumulated
unapplied penalty payments of $2.9 million for this period. These unapplied penalty
payments resulted in violators’ unpaid debt balances being overstated. Therefore, debts
appeared to be delinquent, when they were not. This had resulted in MSHA incorrectly
referring debts to the Treasury for collection activity. To avoid these referral errors and
the resulting disputes with violators, MSHA inappropriately excluded selected violators
from referral to Treasury.

Normally, when payment of a specific penalty became delinquent by more than 150
days, 6 MSHA would refer it for Treasury collection efforts. However, in February 2008,
MSHA created the Exclusion List. 7 To avoid incorrectly referring penalties to Treasury
caused by possible unapplied payments, MSHA exempted violators it placed on this list
from referral to Treasury even if their penalties appeared to be delinquent by more than
150 days. According to MSHA officials, violators on the Exclusion List were those that
“routinely paid their civil penalties timely.” Therefore, MSHA presumed that delinquent
balances were the result of unapplied payments. However, since delays in applying
payments made MSHA’s debt delinquency information unreliable, MSHA could not
know whether these violators had penalties that should be referred to Treasury.

Although the accuracy of the information is uncertain, MSHA’s Debt by Age report as of
September 2010 included penalty cases totaling more than $8 million associated with
133 violators on the Exclusion List that appeared to be more than 180 days delinquent.


                            Delinquency of Debt              Amount

                           181 - 365 days                     $1,263,656
                           1 - 2 years                        $4,156,263
                           2 - 6 years                        $2,627,435
                           6 - 10 years                          $40,289
                                      Total                   $8,087,643

MSHA’s use of the Exclusion List did nothing to address its problem of not applying
payments timely. Instead, it created inconsistent and unfair practices by treating
selected violators differently from other violators.

Finding 2 — MSHA Did Not Identify All Potential Scofflaw Mine Violators

MSHA’s pursuit of repeat, long term debtors as part of its overall enforcement effort did
not identify all potential scofflaw violators. This occurred because MSHA had not
finalized policies and procedures to categorize violators as potential scofflaws. As a

6
  Although the Debt Collection Improvement Act requires non-tax debt that is more than 180 days
delinquent to be referred to Treasury, MSHA used a standard of 150 days.
7
  At the time of our audit, the Exclusion List contained 325 violators.
                                                                       Collection of Final Civil Penalties
                                                   6                     Report No. 05-12-001-06-001
                                                 U.S. Department of Labor – Office of Inspector General



result, some violators were able to ignore their civil penalty obligations without being
subject to MSHA’s scofflaw actions.

In February 2006, MSHA filed an unprecedented lawsuit in U.S. District Court seeking
an injunction against a mine company and its controlling owner who had chronically
failed to pay assessed civil penalties. Since that time MSHA has occasionally, but
irregularly initiated various actions against scofflaw violators. For example, in August
2008, MSHA informed three mine operators that failure to pay their delinquent civil
penalties could result in the issuance of mine closure orders under Section 104(a) of the
Mine Act. The three mines subsequently paid a total of more than $225,000 in overdue
fines. Similarly, in March 2008, MSHA issued a withdrawal order to a mine operator for
failure to pay civil penalties. The mine has been shut down since that time. During FYs
2009 and 2010, MSHA and SOL pursued 24 scofflaw violators that owed a total of
$5,616,611 in delinquent civil penalties. MSHA collected over $1.2 million (23 percent)
from 10 of the 24 scofflaw violators.

While MSHA’s actions to pursue scofflaw violators went above the requirements of the
Debt Collection Improvement Act of 1996, its policies and procedures did not assure
that all potential scofflaws were identified. In January, 2008, MSHA and the SOL
developed draft procedures for identifying scofflaw violators. These draft procedures
were revised in May, 2009, but to date have not been finalized or implemented. As a
result, MSHA had identified only a limited number of potential scofflaw violators. The
basis for selecting these violators was not clear or documented.

Using MSHA’s draft criteria, we identified five scofflaw violators based on our audit
sample of 269 civil penalties for FYs 2009 and 2010. MSHA had not identified three of
these five as potential scofflaws or referred them to SOL for possible action. As of
September 30, 2010, these three violators owed civil penalty balances of $244,415,
$275,937, and $327,739 respectively. 8 Without clearly defined policies and procedures
to identify all potential scofflaw violators, violators may continue to operate while
ignoring the financial consequences and the deterrent that civil penalties are intended to
provide.

Finding 3 — MSHA Did Not Consistently Ensure Penalties Were Uncollectable
             Before Write Off

MSHA did not consistently ensure civil penalties were uncollectable before stopping
collection efforts and writing them off. This occurred because poor management
oversight did not assure that CPCO personnel followed existing SOPs. As a result,
MSHA may have written off civil penalties for violators that still had an ability to pay their
debt.




8
  Subsequent to our audit fieldwork, MSHA reported that it was recommending legal action against two of
these violators.

                                                                       Collection of Final Civil Penalties
                                                   7                     Report No. 05-12-001-06-001
                                                     U.S. Department of Labor – Office of Inspector General



MSHA’s SOP required the justification and supervisory 9 approval be documented on the
Uncollectible Worksheet for every debt written off and that a notice be sent to Treasury
to issue a Cancellation of Debt (IRS Form 1099-C) for every debt over $600. MSHA’s
policy also stated that debt should not be written off if the violator was still in business
and actively producing. A review of a sample of 150 violators for whom MSHA wrote off
406 cases in 155 separate write offs during FYs 2009 and 2010 disclosed that every
case file contained one or more instances of non-compliance with MSHA’s SOPs as
summarized below:

                                  Non Compliant Debt Write-offs
                                       2009              2010                              Total
                                           % of               % of                             % of
                                 # of     Write    # of      Write                   # of      Write
     Type of Non-                Write     Offs    Write      Offs                   Write     Offs
      Compliance                 Offs Reviewed Offs Reviewed                         Offs Reviewed
No Justification
Documented For Debt                125          98           20           71          145           94
Write-off
No 1st Line Supervisory
                                   108          85            1            4          109            70
Approval
No Notice to IRS to
Issue 1099-C Form                  62           49            3           11           65            42
(Over $600)
No Deputy Director
                                   26           20            0            0           26            17
Approval (Over $5,000)
Violators Were Still In
                                    9            7            0            0           9               6
Business 10
No Uncollectable
                                    4            3            3           11           7               5
Worksheet

MSHA officials attributed the failure to consistently follow its SOPs to a lack of
management oversight. MSHA identified this problem in March 2010 and took action to
address the problem. While the error rates in the preceding table do improve in FY
2010, problems still occurred. As a result, MSHA lacked assurance that it wrote off only
debt that was truly uncollectable and that appropriate tax liabilities were recorded for
forgiven debt.

In addition, an MSHA official stated that it did not place a high priority on writing off
debts in FY 2010. As a result, MSHA only wrote off debts totaling $350,441 in FY 2010
compared to $1,609,125 in FY2009.




9
    MSHA’s debt write-off SOPs complied with legal debt write-off requirements.
10
    As of May 18, 2011.
                                                                          Collection of Final Civil Penalties
                                                      8                     Report No. 05-12-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



Other Matters

       MSHA reported it took corrective actions to ensure it assessed all penalties

In January 2008, MSHA reported that it had erroneously not assessed a civil penalty for
more than 5,000 violations that it had issued between January 1995 and July 2006.
MSHA primarily attributed the oversight to ineffective monitoring by management, but
also cited the following contributory issues:

      District personnel not clearly understanding the process or MSHA’s policy, and
       lacking training; and
      A heavier workload generated by an increasing number of citations and orders,
       conferences, and contested cases

In essence, under the system in place at that time, individual violations were not
assessed a civil penalty until MSHA personnel made an entry into MSIS to mark each
violation as “assessment ready.” If managers did not routinely review the system for
violations that had not received this designation, they could, and did, go un-assessed
for months or years.

Based on criteria established by SOL, MSHA subsequently determined that it could no
longer assess a civil penalty for 97 percent of these violations, primarily because a
5-year statute of limitations had run out. Other criteria provided by the SOL and used by
MSHA in determining whether a penalty could be assessed included:

      Availability of the inspector that issued the citation and the supporting inspection
       notes and other documents;
      Perceived negative impact on the violator’s ability to defend themselves due to
       the passage of time; and
      Seriousness of the violation.

The following table summarizes the status of assessments for these violations based on
data provided by MSHA on June 28, 2011.




                                                                Collection of Final Civil Penalties
                                            9                     Report No. 05-12-001-06-001
                                                                  U.S. Department of Labor – Office of Inspector General



                                     Summary of Unassessed Violations
                         1995
                          –          2000       2001       2002            2003        2004          2005        2006        Total
                         1999
# of un-assessed
violations                836         506       473        469               807        1045            684        271         5,091
per MSHA (1)
  - # of violations
                                 0          6     42         62                   8           0             0           0       118
included in error (2)
Corrected # of un-
                          836         500       431        407               799        1,045           684        271         4,973
assessed violations
Violations closed
                          836         500       431        407               793        1,015           637        220         4,839
without assessment
Violations assessed              0          0          0          0               6       30             47         51          134
Proposed
                          ---         ---        ---        ---        $36,258        $12,287      $28,615      $65,398     $142,558
assessments
Current
                          ---         ---        ---        ---        $17,198        $10,258      $23,382      $50,706     $101,544
assessment(3)
Amount collected           ---        ---        ---        ---        $16,674         $9,712      $13,708      $21,315      $61,409
Notes:
  (1) The data in this table was compiled from a detailed inventory of un-assessed violations provided by MSHA.
       The un-assessed Violations reported by MSHA in its February 5, 2008 News Release for 2002 and 2005 were
       470 and 685, respectively. A reason for the variance of 1 violation in each of these years could not be
       determined.
  (2) Detail data provided by MSHA showed that assessments for these violations had a “Billing Date” prior to
       February 2008; therefore, they should not have been included in MSHA’s total of un-assessed violations.
  (3) Current assessments reflect reductions in the Proposed assessment resulting from the judicial appeal process.

MSHA reported that it took corrective action in 2008 by (a) programming MSIS to mark
violations as “assessment ready” no later than 182 days after issuance; (b) providing
managers with a weekly monitoring report that identifies and ages all violations not yet
assessed; (c) implementing new policies and procedures; and (d) providing related
training. As of June 28, 2011, MSHA’s Unassessed Violation Summary Report did not
contain violations older than 6 months (180 days) which MSHA had not already
identified as “assessment ready.”

RECOMMENDATIONS

We recommend that the Assistant Secretary for the Mine Safety and Health
Administration require MSHA management to:

    1. Revise existing procedures to assure timely application of civil penalty payments,
       particularly when applying payments to the oldest debt if the violator does not
       identify how to apply the payment;

    2. Revise procedures to assure consistent referrals to Treasury;

    3. Finalize policies and procedures to identify all potential scofflaw violators; and

    4. Implement controls to assure appropriate and consistent write-off of uncollectable
       civil penalties.
                                                                                                  Collection of Final Civil Penalties
                                                                      10                            Report No. 05-12-001-06-001
                                        U.S. Department of Labor – Office of Inspector General



We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                             Collection of Final Civil Penalties
                                         11                    Report No. 05-12-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Collection of Final Civil Penalties
              12                    Report No. 05-12-001-06-001
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                    Collection of Final Civil Penalties
                13                    Report No. 05-12-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Collection of Final Civil Penalties
              14                    Report No. 05-12-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix A
Background

The DOL MSHA’s authority is derived from the Mine Act, as amended by the Mine
Improvement and New Emergency Response Act of 2006 (MINER Act). The Mine Act
requires MSHA personnel to inspect mines to determine compliance with prescribed
health and safety standards. If violations were found, inspectors issue citations/orders to
the violators. MSHA may assess a civil penalty associated with each violation at a level
that will encourage compliance and promote safe and healthy workplaces for miners.
During CY 2009 and 2010, MSHA inspections resulted in the issuance of 174,354 and
172,035 citations/orders, and assessed civil penalties of $137.0 million and $146.4
million, respectively.

Congress passed the Debt Collection Improvement Act of 1996 (DCIA) in response to a
steady increase in the amount of delinquent non-tax debt owed to the government, and
concern that appropriate actions were not being taken to collect this delinquent debt.
This law centralized the government wide collection of delinquent debt and gave the
Treasury significant new responsibilities in this area. Moreover, Federal agencies are
required to refer eligible delinquent (over 180 days) non-tax debts to Treasury for debt
collection action, if they have not been successful at collecting those debts. The
Financial Management Service within Treasury is responsible for the implementation of
the debt collection provisions of the DCIA.

The OA administers the civil penalty provisions of the Mine Act. OA’s CPCO was
responsible for (a) tracking civil penalty cases; (b) preparing contested cases for
litigation; (c) processing and accounting for penalty payments; (d) collecting and
accounting for delinquent penalties: and (e) referring delinquent penalties to the
Treasury.

In 2007, MSHA began actions to pursue repeat, long term debtors as part of its overall
enforcement effort. These actions included pursuing violators that owed large amounts
of delinquent civil penalties or ignored paying their civil penalties altogether although
they were financially capable of meeting these legal obligations. OA worked with SOL to
identify scofflaw violators, determine appropriate action, and attempt to collect
delinquent civil penalties. During FYs 2009 and 2010, MSHA and SOL pursued 24
scofflaw violators that owed a total of $5,616,611 in delinquent civil penalties. MSHA
collected over $1.2 million (23 percent) from 10 of the 24 scofflaw violators.




                                                                Collection of Final Civil Penalties
                                            15                    Report No. 05-12-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Collection of Final Civil Penalties
              16                    Report No. 05-12-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The OIG conducted a performance audit to determine whether MSHA properly collected
and accounted for final civil penalties from violators.

In addition, the OIG obtained current information from MSHA concerning a problem
MSHA identified in 2008 concerning violations for which civil penalties had not been
assessed.

Scope

The OIG audited MSHA’s penalty collection activities and write-off of uncollectable debt
during FYs 2009 and 2010. In addition, we reviewed information provided by MSHA
officials concerning MSHA’s failure to assess civil penalties for more than 5,000
violations issued between January 1995 and July 2006. We performed audit work at
MSHA’s National Office in Arlington, Virginia and MSHA’s Data Center in Denver,
Colorado.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

Our audit work covered MSHA’s penalty collection activities and referral of penalties to
Treasury for collection, scofflaw enforcement strategy, and write-off of uncollectable
penalties from October 1, 2008 through September 30, 2010 (FYs 2009 and 2010). In
addition, we obtained current information from MSHA concerning its January 2008
report that it had erroneously not assessed civil penalties for several thousand violations
issued between January 1995 and July 2006.

To gain an understanding of MSHA’s civil penalty collection, scofflaw enforcement
strategy, and debt write-off processes, we reviewed MSHA’s SOPs and determined if
they complied with federal laws and regulations, reviewed applicable MSIS business
rules; interviewed key OA and CPCO officials, and the Deputy Associate Solicitor for
MSHA; flowcharted the key processes and identified decision points; and reviewed
written responses to questions we provided to MSHA officials.




                                                                Collection of Final Civil Penalties
                                            17                    Report No. 05-12-001-06-001
                                                U.S. Department of Labor – Office of Inspector General



To determine if MSHA properly performed collection activities, we analyzed data;
reviewed and obtained an understanding of MSHA’s Top 20 List 11 , Exclusion List and
various reports; interviewed officials; and obtained written responses to questions we
provided. Specifically, using data obtained from MSIS, we reviewed a statistical
sample 12 of 143 Coal civil penalties totaling $1,253,982 from a population of 174,224
Coal civil penalties totaling $99,700,072 and a sample of 126 Metal Non-Metal civil
penalties totaling $1,001,234 from a population of 124,366 civil penalties totaling
$47,632,608 that became final and collectible during FY 2009 and FY 2010. For each
final civil penalty we calculated the number of days of delinquency and based on a
penalty’s delinquency we determined whether collection activities were performed by
MSIS and/or the MSHA employees. We also:

     •	 obtained an understanding of a list of unapplied payments from violators or third
        parties as of September 30, 2010;
     •	 compared the Top 20 List to debt aging data as of September 30, 2010, to 

        determine whether the list was current and if violators had paid assessed 

        penalties timely; 

     •	 compared the Exclusion List to the debt aging data as of September 30, 2010, to
        determine whether the violators had paid assessed penalties timely; and
     •	 compared the Top 20 List to the Exclusion List to determine if the lists were the
        same.

To determine if MSHA properly pursued collection of assessed civil penalties from
scofflaw violators as part of its enforcement strategy, we:

     •    interviewed MSHA and SOL officials; 

     •    obtained written responses to questions we provided to MSHA officials; 

     •	   reviewed a list of scofflaw violators MSHA and SOL identified; and
     •	   reviewed proposed assessment documentation for potential scofflaw violators.

In addition, we used the data obtained for the collection activities sample (described
above) to identify potential scofflaw violators that were delinquent and demonstrated a
history of poor civil penalty payments and compared the violators we identified to the
MSHA and SOL list of scofflaw violators to determine if MSHA had identified all scofflaw
violators.

To determine if MSHA properly wrote off uncollectable civil penalties, we interviewed
MSHA and Treasury officials, and reviewed case files. Specifically, we reviewed a
statistical sample 13 of 120 violators with uncollected civil penalties totaling $524,659

11
   MSHA assigned the violators on the Top 20 List to specific Civil Penalty Compliance Specialists who
were responsible for monitoring payments, resolving issues and ensuring payment of delinquent
penalties.
12
   We were unable to project the amount of payments MSHA applied late because violators made multiple
payments for the same case.
13
   We were unable to project the number of debt write-offs MSHA made that were not in compliance with
its policy because MSHA wrote off debts more than once for the same violator.

                                                                      Collection of Final Civil Penalties
                                                 18                     Report No. 05-12-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



from a universe of 791 violators totaling $1,609,125 for FY 2009 and 30 violators with
uncollected civil penalties totaling $21,576 from a universe of 50 violators with
uncollected civil penalties totaling $350,441 for FY 2010. We determined if MSHA
followed its policies and procedures when writing off uncollectable civil penalties. We
also reviewed internet records contained on various Secretary of State web sites to
determine whether MSHA wrote off civil penalties for violators still in business and
analyzed the Debt by Age report as of September 30, 2010.

To determine if MSHA had taken corrective action to correct a problem it identified in
2008 with assessing civil penalties timely for all citations between January 1995 and
July 2006, we reviewed emails, memorandums, MSIS business rules, and Excel
workbooks. We also reviewed criteria the SOL provided to MSHA for deciding which
violations could be assessed a civil penalty. In addition, we reviewed a listing of the 133
that were ultimately assessed from MSHA’s identified violations, the assessed amount,
the final order amount, and the amount paid.

Reliability Assessment

To determine the reliability of MSHA collection activity data, we used an approach
consistent with the Government Accountability Office’s Assessing the Data Reliability of
Computer-Processed Data (GAO-09-680G, July 2009, External Version I). MSHA
provided data for our testing consisting of 312,251 records for civil penalties that
became final and collectable during FY 2009 and FY 2010, 22,424 records for civil
penalties written off during FY 2009 and FY 2010, and 308,336 records for check
deposited during FY 2009 and FY 2010.

To determine the reliability of the data, we (a) examined and tested MSHA’s controls
over the collection and processing of critical data elements, (b) tested key data
elements for anomalies (e.g., values out of normal range, blank values, inappropriate
relationships, etc.), and (c) traced statistical samples of records back to source
documents.

Specifically, we randomly sampled 60 of 58,027 checks to determine if MSHA entered
payment information correctly. Based on our assessment and tests, we concluded the
data on check payments were sufficiently reliable to be used in meeting our objectives.

We also randomly sampled 30 of 19,782 U.S. Postal Service Certified Return Receipts
(CRR) to determine if MSHA and the Assessment Office entered dates of operator
penalty notifications correctly in the MSIS. Until May 2008, MSHA entered dates of
operator penalty notifications in the MSIS. At that time, MSHA switched the
responsibility to the Assessment Center in Wilkes-Barre, Pennsylvania, to improve the
timeliness and accuracy of the data entered. Our sample of 30 CRRs included 14
entered by CPCO and 16 entered by the Assessment Center. All those entered by the
Assessment Center were accurate. However, of the 14 entered by CPCO, 7 were
incorrect and CPCO could not locate six CRR documents.



                                                                Collection of Final Civil Penalties
                                            19                    Report No. 05-12-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



The inaccurate dates CPCO entered caused the MSIS to inaccurately calculate the final
order date and the delinquent date fields for uncontested civil penalties. Both the MSIS
and CPCO personnel relied on these dates to determine when to perform collection
activities. Since CPCO relied on these dates, even though they were inaccurate, we
determined the data was sufficiently reliable to meet our objective of determining if the
MSIS and CPCO personnel performed collection activities timely.

Since MSHA recognized the problem and shifted the responsibility to the Assessment
Center and our data assessment and testing detected no input errors, we did not
recommend any further action to correct the data entry problems.

Internal Control

In planning and performing our audit, we considered the OA’s internal control that was
relevant to our audit objective by obtaining an understanding of that control, and
assessing control risk for the purpose of achieving our objective. The objective of our
audit was not to provide assurance of the internal controls; therefore, we did not
express an opinion on the OA’s internal control. Our consideration of internal control
relevant to our audit objective would not necessarily disclose all matters that might be
significant deficiencies. Because of the inherent limitations on internal control,
noncompliance may nevertheless occur and not be detected.

Criteria

Federal Mine Safety and Health Act of 1977, as amended

Miner Improvement and New Emergency Response Act of 2006

Debt Collection Improvement Act of 1996

4 Code of Federal Regulations (CFR) Parts 101 through 105

29 CFR - Part 20

31 CFR Parts 285 & 900 through 904

OMB Circular A-129

U.S. Department of Labor Manual Series 6 – Financial Management




                                                                Collection of Final Civil Penalties
                                            20                    Report No. 05-12-001-06-001
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix C
Acronyms and Abbreviations

CFR             Code of Federal Regulations

CPCO            Civil Penalty Compliance Office

CRR             Certified Return Receipts

CY              Calendar Year

DCIA            Debt Collection Improvement Act of 1996

DOL             U.S. Department of Labor

FY              Fiscal Year

Mine Act        Federal Mine Safety and Health Act of 1977

MINER Act       Mine Improvement and New Emergency Response Act of 2006

MSHA            Mine Safety and Health Administration

MSIS            MSHA Standardized Information System

OA              Office of Assessments

OIG             Office of Inspector General

SOL             Solicitor of Labor

SOP             Standard Operating Procedures

Treasury        U.S. Department of Treasury




                                                          Collection of Final Civil Penalties
                                        21                  Report No. 05-12-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Collection of Final Civil Penalties
              22                    Report No. 05-12-001-06-001
                                                          U.S. Department of Labor – Office of Inspector General



                                                                                                           Appendix D
MSHA's Response to Draft Report


       U.S. Department of Labor                    MLnu l'l. ,y and Hea" Adm" tr, lion
                                                   1100 W,iSC"n Boulev d
                                                   A "{lIon v      a "i~ '09·3939



         OCT 112011
        MEMORANDUM FOR ELLIOT P. LEWIS
                       Assistant Inspector General for Audit


        FROM:                    JOSEPH A. MAIN
                                 Assistant Secretary of
                                                       C\
                                                       la~r
                                                            ~    for
                                 Mine Safety and Health

        SUBJECT:                 Response to OIG Draft Audit Report No. 05-11-003-06-001
        Thank you for the opportunity to review your draft audit report. The Mine Safety and Health
        Administration (MSHA) believes that the report contains sound recommendations for improving
        the Agency's civil penalty collection practices. However. I am providing additional information
        so that some of the audit findings and recommendations can be put in proper context. I also
        want to report on some relevant activities that occurred after the FY 2009-2010 period that was
        the subject of the OIG review.
        The OIG stated that the objective of the audit was to determine if MSHA properly collected and
        accounted for final civil penalties. Although the OIG found that MSHA does not always apply
        penalty payments timely, I note that the audit report cites no instances where MSHA could not
        account for final civil penalties assessed or payments received. At the entrance conference for
        this audit. MSHA requested that, as a part of its review, OIG provide information on the
        effectiveness of the Agency's civil penalty collections compared to other federal collection
        efforts. The OIG report states that as of October 2010, 80 percent 01 the $104.4 million of civil
        penalties that had become final orders in FYs 2009 and 2010 had been paid. The collections
        have increased since that time. As of October 6, 2011, there was a total of $147.1M in final civil
        penalties for those two fiscal years, and $124.8M (85 percent) had been paid. The OIG review
        team informed me they were unable to obtain statistics for other federal agencies, but I believe
        this is necessary in order to gauge the relative effectiveness of MSHA's civil penalty collection
        practices.

        The report contains reference to citations for which MSHA did not propose civil penalties
        between 1995 and 2006. These are citations that should have been assessed 5-16 years ago.
        Given that the period the OIG reviewed was FY 2009-2010. the reference to unassessed
        citations that occurred some years prior to the review period is outside the scope of this review.
        During the review, the OIG did not find any unassessed citations.

        The report focuses on three areas (a) the timely application of payments against outstanding
        debt and timely and consistent referral of delinquent debt to Treasury; (b) the identification of
        potential ·scofflaws"; and (c) ensurillQ that penalties are uncollectable before writing off the debt.
        I note that the findings associated with these three areas do not identify MSHA noncompliance
        with federal statutes or requirements. Rather, the recommendations refer to modifications of. or
        adherence to. MSHA internal policies and procedures that in some cases exceed federal
        requireme nts. These and other issues noted below are not described in the proper context in
        the draft report. We would appreciate if you would revise the report to reflect changes in the
        context, as appropriate .

                       • !   ,    M~   iA!o   0'




                                                                                         Collection of Final Civil Penalties
                                                            23                             Report No. 05-12-001-06-001
                                              U.S. Department of Labor – Office of Inspector General




                                                 2

DIG Recommendation No.1: Revise existing procedures to assure timely application of civil
penalty payments, particularly when applying payments to the oldest debt if the violator does not
identify how to apply the payment.

MSHA agrees with this recommendation. Please nole that mine operators send civil penalty
payments directly to the Treasury Department lockbox bank designated to receive these
payments and the bank. immediately deposits the payments in the Federal Government's
general fund . The timeliness standards to which the OIG compared the civil penally payment
applications are MSHA's internal timeliness standards. MSHA's standard operating procedures
(SOPs). implemented in 2008, require payments to be applied within three days of notification
from Treasury that payment has been received; that is the timeliness standard the OIG used as
a benchmark. However, the SOPs also address how payment processers should handle
checks that they cannot apply within three days, recognizing that many factors can cause
delays in applying payments. Nevertheless, MSHA recognizes the need to opply payments as
quickly as possible and agrees with the OIG recommendation that MSHA apply payments to the
oldest debt when , for example, the operator does not identify how to apply the payment.

Specifically, the OIG recommends that when an operator fumishes insufficient information for
MSHA to identify the specific civil penalties the operator intends to pay, MSHA should apply the
payment to the oldest debt for that operator. MSHA has been applying payments to the oldest
debt in cases where there is insufficient information to identify penalties the operator intends to
pay. However, MSHA cannot do this in every case when information is lacking, for example
when the mine operator cannot be identified .

 In FY 2009, MSHA initiated a long-term, phased in project to: obtain more information from
mine operators when they submit their payments; automate the payment application process;
and ensure payments received for fi nal orders of the Federal Mine Safety and Health Review
Commission (FMSHRC) are reserved for FMSHRC decisions. MSHA deployed a new
Proposed Assessment and Statement of Account in December, 2010. This document is sent to
mine operators to inform them of the proposed assessment for each cited violation and replaced
the former Notice of Proposed Assessment. The new Proposed Assessment provides a coupon
for submission with payments. The Treasury Department lockbox bank that receives the civil
penalty payments and deposits the funds in the Treasury enters the coupon information into its
system and transmits this information to MSHA.

This new process resulted in fewer payments for which the penalties could not be identified and
set the stage for the second phase of the project that was implemented in August, 2011 . In this
phase, MSHA deployed a computer system enhancement that replaced the manual payment
application process. The automated process applies all payments for which the lockbox bank
enters sufficient information (i.e. the coupon is returned). The system was also programmed to
apply payments to the oldest available debt when the mine and the operator are identifiable and
the operator does not identify a specific penalty to pay.

Phase three of this project, scheduled for December, 2011 , is a system enhancement to reserve
payments for pending FMSHRC decisions.




                                                                          Collection of Final Civil Penalties
                                                24                          Report No. 05-12-001-06-001
                                                U.S. Department of Labor – Office of Inspector General




                                                  3
OIG Recommendation No.2: Revise procedures to assure consistent referrals to Treasury.
MSHA agrees with this recommendation. As the OIG reports stales, although the Debt
Collection Improvement Act requires debt that is more than 180 days delinquent to be referred
to Treasury for collection , MSHA uses a standard of 150 days delinquent. Each week, MSHA's
system identifies debt that is 150 days delinquent. Office of Assessments staff research this
debt and, if no payments are in suspense for the debtor, it is mar1<::ed for referral 10 Treasury.
Since 2006, the fi les have been transferred electronically to the Treasury Department's
Financial Management Services system every week.

This recommendation refers to MSHA's current procedure of not referring to Treasury debt Ihal
appears to be delinquent for certain companies (the Exclusion List) who regularly pay their civil
penalties. This procedure was implemented in 2008 to prevent non-dellnquent debt from being
referred to Treasury. MSHA takes issue with referring to its debt delinquency information as
· unreliable'. The information is reliable for identifying potentially delinquent debt. The Exclusion
List has served the purpose of not referring debt to Treasury for which payments have been
received but not yet applied, a significant savings in time and administrative costs for Treasury,
MSHA, and, most importantly, the companies that have paid civil penalties that are pending
payment apptication.

Wrth the deployment of the system enhancements referenced in MSHA's response to OIG
recommendation 1, MSHA is now able to eliminate companies from the Exclusion List as
existing payments with balances are applied to the oldest debt for these companies. This will
result in the systematic removal of com panies from the Exclusion List and the elimination of the
Exclusion List in its entirety during this fiscal year.

OIG Recommendation 3: Finalize policies and procedures to identify al/ potential scofflaw
operators.

The Agency agrees that it should finalize policies and procedures to identify potential scofflaw
operators. We also agree, as the report states • ... MSHA's actions to pursue scofflaw violators
went above the requirements of the Debt Collection Improvement Act of 1996.. ' In fact, I
assigned staff to work with the Solicitor's Office to develop scofflaw definitions, and these
criteria are nearing completion.

It is important to note that the MSHA scofflaw initiative is an enhanced enforcement initiative
that is an important element in MSHA's enforcement program. It is not a collection effort. This
is an evolving initiative and one that MSHA has no legal duty to implement. It is important to
note also that there is no legal requirement for MSHA to collect delinquent debt after referring
the debt to Treasury for collection.

MSHA strongly believes that the OIG mischaracterized the current situation when it stated that
operators were • ... able to ignore their civi l penalty obligations without consequence' within the
context of the scofflaw program. When mine operators ignore their civil penalty obligations,
MSHA refers the delinquent debt to Treasury for collection as required under the Debt
Collection Improvement Act. Treasury takes the following actions, as applicable:




                                                                            Collection of Final Civil Penalties
                                                 25                           Report No. 05-12-001-06-001
                                                U.S. Department of Labor – Office of Inspector General




                                                       4

        1.      Treasury sends a demand letter within five business days of MSHA referral;

        2.      Debtors and FMS personnel enter repayment negotiations;

        3.      Debt is submitted to the Treasury Offset Program (TOP) within 20 days of
                referral;

        4.      Debt is referred 10 credit bureaus;

        5.      Debt is referred 10 al least one, and in most cases two, private collection
                agencies;

        6.      Administrative wage garnishment;

        7.      Referral to Justice Department for litigation: and

        8.      Unpaid debt is reported to the Internal Revenue Service as potential income to
                the debtor on Form 1099-C.

M5HA believes thai this initiative is an important enhanced enforcemenl 1001 Ihat will help 10
improve the safety and health of miners. I instructed staff to start finalizing the policies and
procedures for the scofflaw initialive in October, 2010. MSHA and the Office of the Solicitor
have employed several new strategies to pursue · scofflaw" operators with mixed results. MSHA
is developing the policies and procedures for the scofflaw program within the context of the
experience gained using these strategies.

 OIG Re comm enda ti o n 4: Implement controls to assure appropriate and consistent write-off of
uncolfectable civil penalties.

MSHA concurs with this recommendation. The report states that MSHA may have written off
civil penalties for companies that still had an ability to pay their debt As a point of clarification,
MSHA's current procedures, implemented in 2007, prohibit writing off debt of companies still in
business, although federal requirements do not contain this prohibition, A company's ability to
pay does not factor inlo Ihe federal write-off requirements. According 10 federal requirements,
write-offs should occur when the agency determines that the likelihood of collection is less than
50% . According to federal requirements , wrile-ofts are mandatory (unless documented and
justified to the Office of Management and Budget in consultation with Treasury) for delinquent
debt that has no value for accounting purposes or is older than two years. Th e Office of
Assessments is currently reviewing and revising the write-off procedures and developing
stronger internal controls to ensure compliance with the procedures.

In conclusion, I look forward to providing more specific details on the actions MSHA will take in
response to each of the DIG recommendations. MSHA will provide the planned actions within
60 days.

If you have any questions concerning this response. please contact Jay Mattos, Director of
Assessm ents, at 202-693-9702.




                                                                             Collection of Final Civil Penalties
                                                  26                           Report No. 05-12-001-06-001
                                          U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix E
Acknowledgements

Key contributors to this report were Charles Allberry (Audit Director), Robert Swedberg,
Donald Evans, Richard Bryan, Elizabeth Garcia, Norlean (Renee) Kelly, Wilma Perez,
Cassie Galang, and Mary Lou Casazza.




                                                               Collection of Final Civil Penalties
                                           27                    Report No. 05-12-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Collection of Final Civil Penalties
              28                    Report No. 05-12-001-06-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
